No. 19-169

In the Supreme Court of the United States

Jane Doe,
Petitioner,

v.

Iowa,
Respondent.

On Petition for a Writ of Certiorari
to the Iowa Supreme Court

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Reply Brief for
Petitioner in the above-entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point for the
text and 10 point for the footnotes, and that the Reply Brief contains 1,063 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 30, 2019.

. Stuart Banner
UCLA School of Law
405 Hilgard Ave.

Los Angeles, CA 90095
(310) 206-8506
banner@law.ucla.edu
Counsel for Petitioner
